Audit of USAID’s Compliance with Federal
Regulations in Awarding the Iraq Phase II
Reconstruction and Rehabilitation, Program Advisors
and Oversight Contract
Audit Report Number E-266-04-003-P
August 6, 2004




                  Baghdad, Iraq


                                                      1
August 6, 2004


MEMORANDUM
FOR:          M/OAA/OD, Timothy T. Beans

FROM:         AIG/A, Bruce N. Crandlemire /s/

SUBJECT:      Audit of USAID’s Compliance with Federal Regulations in
              Awarding the Iraq Phase II Reconstruction and Rehabilitation,
              Program Advisors and Oversight Contract
              (Report No. E-266-04-003-P)

This memorandum transmits our final report on the subject audit. The report contains no
recommendations.

I want to express my sincere appreciation for the cooperation and courtesies extended to my staff
during the audit.




                                                                                               1
(This page intentionally left blank)




                                       2
Table of   Summary of Results...........................................................................................5
Contents   Background ....................................................................................................... 5

           Audit Objective................................................................................................. 6

           Audit Findings .................................................................................................. 6

                      Did USAID comply with federal regulations in awarding the Iraq
                      Phase II Reconstruction and Rehabilitation, Program Advisors and
                      Oversight Contract? .............................................................................. 6

           Evaluation of Management Comments..............................................................7

           Appendix I – Scope and Methodology ..............................................................9




                                                                                                                                  3
(This page intentionally left blank)




                                       4
Summary of   The Regional Inspector General in Baghdad (RIG/Baghdad) has completed an
Results      audit to determine whether USAID complied with federal regulations in awarding
             the Iraq Phase II Reconstruction and Rehabilitation, Program Advisors and
             Oversight Contract. (See page 6.)

             For the areas reviewed, RIG/Baghdad determined that USAID complied with
             applicable federal regulations in the awarding of this contract. (See page 6.)



Background   In response to the emergency situation in Iraq, USAID awarded $1.5 billion in
             contracts to carry out the initial phase of reconstruction work within the country.
             Among these contracts was a $27.1 million contract awarded to the International
             Resources Group, Ltd. (IRG) to provide experienced personnel for the
             implementation of emergency relief and short-term rehabilitation activities. This
             contract was awarded on February 7, 2003 as a cost-plus-fixed-fee contract
             (EMT-C-03-00007) using other than full and open competition as authorized
             under a blanket approval granted by the USAID Administrator for activities and
             programs initiated in response to the crisis in the Near East1. The duration of the
             contract was three months (base period) with two, one-year option years.

             USAID/Iraq later determined that the statement of work under the IRG contract
             needed to be revised to address the changing situation and current needs of the
             Mission. As a result, a decision was made not to extend the contract for the
             second option year and to award a new contract instead as part of the second
             phase of contracts awarded for work in Iraq. In addition, the Mission, in
             consultation with the Bureau for Management, Office of Acquisition and
             Assistance, determined that, unlike the former contract, the needs of the Agency
             would be best met by awarding this new contract by negotiation under a full and
             open competition.

             On March 30, 2004, USAID completed its procurement process and awarded a
             $86.8 million cost-plus-fixed-fee term contract to IRG2 to provide experienced
             personnel for the implementation of development assistance promoting the
             reconstruction effort in Iraq. This contract covers a 42-month period which
             includes an 18-month base period plus two, one-year option periods.


             1
               On January 16, 2003, the Office of the USAID Administrator authorized expedited acquisition
             and assistance procedures for activities and programs in response to the crisis in the Near East.
             This authority allowed USAID to award these contracts using other than full and open competition
             requirements in accordance with 40 USC 474. This statutory authority requires the awarded
             contracts to be supported by written justifications and approvals as described in the FAR.
             2
                 Contract No. 517-C-00-04-00106-00



                                                                                                            5
Audit Objective   The Office of Inspector General (OIG) has developed an audit strategy to address
                  performance and financial issues being faced by USAID during its performance
                  of reconstruction efforts in Iraq. This audit was conducted by the Regional
                  Inspector General’s Office in Baghdad to implement this strategy which is based,
                  in part, on an earlier request by the U.S. House Appropriations Subcommittee for
                  Foreign Operations for the OIG to review all new USAID contracts over $1
                  million. This audit was designed to answer the following audit objective:

                         Did USAID comply with federal regulations in awarding the Iraq
                         Phase II Reconstruction and Rehabilitation, Program Advisors and
                         Oversight Contract?

                  Appendix I contains a discussion of the audit scope and methodology.



Audit Findings    For the areas reviewed, we determined that USAID complied with applicable
                  federal regulations in awarding the Iraq Phase II Reconstruction and
                  Rehabilitation, Program Advisors and Oversight Contract.

                  The federal regulations covering the contract award process are contained in the
                  Federal Acquisition Regulation (FAR). Some of the key regulations under the
                  FAR include requiring contracting officers, with certain limited exceptions, to
                  provide for full and open competition through the use of the competitive
                  procedure that is best suited to the circumstances of the contract action (FAR Part
                  6.100). Contracting officers must also publicize contract actions in order to
                  increase competition, broaden industry participation and assist small or
                  disadvantaged business concerns in obtaining contracts (FAR Part 5.000). In
                  advertising the contract actions, the FAR specifies the procedures for preparing
                  the Request for Proposals, as well as restrictions regarding the exchange of
                  information with prospective contractors prior to receipt of the proposals (FAR
                  Part 15.200). The FAR also requires contracting officers to obtain and document
                  sufficient evidence to enable them to make a determination as to whether
                  prospective contractors submitting proposals are qualified (FAR Part 9.100).

                  In addition to the FAR, the USAID Acquisition Regulation (AIDAR) specifies
                  prescribed procedures for evaluating proposals received from prospective
                  contractors and require the results of these evaluations, including any discussions
                  held with offerors, to be documented in the contract files.

                  We determined that USAID complied with the aforementioned regulations in
                  awarding the Iraq Phase II Reconstruction and Rehabilitation, Program Advisors
                  and Oversight Contract to IRG. We found, for example, that USAID’s Bureau for
                  Management, Office of Acquisition and Assistance (M/OAA) complied with FAR


                                                                                                   6
                Part 6 by selecting a competitive procedure to solicit offers and issuing a
                negotiated request for proposals in an effort to provide for full and open
                competition.

                In addition, we determined that M/OAA complied with FAR Parts 5 and 15 in
                publicizing this contract action and in preparing the Request for Proposal. On
                January 2, 2004, USAID issued the Request for Proposal for this contract on the
                Federal Business Opportunities website, resulting in two firms submitting final
                proposals by the February 19, 2004 closing date. Documentation contained in the
                contract files showed that M/OAA made the required determination as to whether
                these two prospective contractors were qualified and responsible to perform the
                contract.

                A technical evaluation panel reviewed the two proposals and determined that both
                were acceptable, prompting discussions with the two firms regarding their cost
                proposals. As required under AIDAR 715, the contract files documented the
                results of this panel evaluation, including justification for its final selection, as
                well as any exchanges between the panel and prospective contractors.

                On March 30, 2004, USAID awarded a cost-plus-fixed-fee term contract to IRG
                for approximately $86.8 million covering a 42-month period which included an
                18-month base period followed by two, one-year option periods.

                Based on the above, we concluded that USAID had complied with federal
                regulations and awarded the Iraq Phase II Reconstruction and Rehabilitation,
                Program Advisors and Oversight Contract to IRG under full and open
                competition.



Evaluation of   M/OAA stated that they agreed with the findings in the report.
Management
Comments




                                                                                                   7
(This page intentionally left blank)




                                       8
                                                                                             Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General’s Office in Baghdad (RIG/Baghdad) conducted this audit
              in accordance with generally accepted government auditing standards. The purpose of the
              audit was to determine if USAID complied with federal regulations in awarding the Iraq
              Phase II Reconstruction and Rehabilitation, Program Advisors and Oversight Contract.

              Fieldwork for this audit was conducted at the offices of USAID/Iraq in Baghdad, Iraq
              from May 10, 2004 to July 15, 2004. The audit covered the awarding of a cost-plus-
              fixed-fee contract entitled Iraq Phase II Reconstruction and Rehabilitation, Program
              Advisors and Oversight (Contract No. 517-C-00-04-00106-00) to the International
              Resources Group, Ltd. on March 30, 2004.

              In carrying out this audit, we reviewed records and information contained in the contract
              files relating to the solicitation and awarding of the above contract. Some of these
              records were obtained in electronic format from records on-file at USAID’s Bureau for
              Management, Office of Acquisition and Assistance (M/OAA). The audit reviewed these
              records in order to determine whether USAID complied with key federal regulations,
              specified in the Federal Acquisition Regulation (FAR), as well as Agency regulations,
              contained in the USAID Acquisition Regulation (AIDAR), pertaining to the solicitation
              and awarding of the contract. Specifically, we reviewed USAID’s compliance with key
              regulations contained in the FAR Parts 5, 6, 9 and 15 and AIDAR 715.3.

              The scope of this audit also involved obtaining an understanding of USAID’s process for
              soliciting and awarding contracts which included the following key management
              controls:

                     Use of ProDoc document preparation software to ensure solicitation and contract
                      documents contain required clauses.
                     Review of Request for Proposals.
                     Determination of whether prospective contractors were qualified.
                     Evaluation of proposals by the technical evaluation panel.
                     Documenting of assessments, discussions with prospective contractors,
                      evaluation results, and basis for final selection.

              This audit did not involve an assessment of the overall effectiveness of the management
              controls at USAID/Iraq or M/OAA with regards to the solicitation and awarding of
              contracts. In addition, the audit did not assess the reasonableness of the contract price or
              review the assessments and results of the panel evaluation.




                                                                                                        9
Methodology

To answer the audit objective, we examined supporting records and information
contained in the contract files at USAID/Iraq to determine whether USAID complied
with selected regulations contained in the FAR and AIDAR in the solicitation and
awarding of the Iraq Phase II Reconstruction and Rehabilitation, Program Advisors and
Oversight Contract (contract no. 517-C-00-04-0016-00).

Some of the records and documents examined included the memorandum of negotiation,
Request for Proposals, memorandum on the results of the technical evaluation committee
review, contract and general correspondence. These documents were prepared by the
procurement staff at USAID/Iraq in Baghdad, M/OAA in Washington, D.C. and by the
Regional Contracting Officer assigned to the USAID/Dominican Republic Mission in
Santo Domingo, Dominican Republic.

A materiality threshold was not established for this audit given the nature of the audit
objective which involved assessing procedural compliance with applicable federal
regulations in the awarding of this Iraq Phase II contract.




                                                                                     10
